<html>
<title> - EXAMINING STATE AND FEDERAL RECOMMENDATIONS FOR ENHANCING SCHOOL SAFETY AGAINST TARGETED VIOLENCE</title>
<body><pre>[Senate Hearing 116-117]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-117

                      EXAMINING STATE AND FEDERAL
 RECOMMENDATIONS FOR ENHANCING SCHOOL SAFETY AGAINST TARGETED VIOLENCE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION
                               __________

                             JULY 25, 2019
                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-458 PDF                  WASHINGTON : 2020




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
 Courtney Allen Rutland, Deputy Chief Counsel for Governmental Affairs
               William W. Sacripanti, Research Assistant
               David M. Weinberg, Minority Staff Director
         Alexa E. Noruk, Minority Director of Homeland Security
                    Roy S. Awabdeh, Minority Counsel
                  Jeffrey D. Rothblum, Minority Fellow
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     2
    Senator Scott................................................     3
    Senator Hassan...............................................    20
    Senator Rosen................................................    22
Prepared statements:
    Senator Johnson..............................................    37
    Senator Peters...............................................    39
    Senator Rubio with attachment................................    41

                               WITNESSES
                        Thursday, July 25, 2019

Max Schachter, Founder and Chief Executive Officer, Safe Schools 
  for Alex.......................................................     7
Tom Hoyer, Treasurer, Stand with Parkland--The National 
  Association of Families for Safe Schools.......................     9
Hon. Bob Gualtieri, Chair, Marjory Stoneman Douglas High School 
  Public Safety Commission, and Sheriff, Pinellas County, Florida    11
Deborah Temkin, Ph.D., Senior Director of Education Research, 
  Child Trends...................................................    13

                     Alphabetical List of Witnesses

Gualtieri, Hon. Bob:
    Testimony....................................................    11
    Prepared statement...........................................    62
Hoyer, Tom:
    Testimony....................................................     9
    Prepared statement...........................................    51
Schachter, Max:
    Testimony....................................................     7
    Prepared statement...........................................    49
Temkin, Deborah Ph.D.:
    Testimony....................................................    13
    Prepared statement...........................................    65

                                APPENDIX

Statements submitted for the Record from:
    American Civil Liberties Union...............................    71
    Advancement Project..........................................    77
    Alliance for Excellent Education.............................    82
    American Federation of Teachers..............................    84
    Association of University Centers on Disabilities............    86
    Autism Society of Florida....................................    88
    Arizona Department of Education..............................    90
    Consortium for Citizens with Disabilities....................    92
    Center for American Progress.................................    94
    Children's Defense Fund of New York..........................    96
    Communities for Just Schools Fund's..........................    97
    Common Sense.................................................   100
    Community Organizing and Family Issues.......................   103
    Council of Parent Attorneys and Advocates, Inc...............   106
    Disability Independence Group................................   111
    Everytown for Gun Safety.....................................   114
    Future of Privacy Forum......................................   119
    Giffords Law Center..........................................   125
    I Vote for Me................................................   128
    Intercultural Development Research Association...............   130
    Maricop County Sheriff's Office..............................   134
    National Association for the Advancement of Colored People 
      Legal Defense Fund.........................................   140
    National Association of Secondary School Principals..........   146
    National Association of School Psychologists.................   149
    National Disability Rights Network...........................   173
    National Education Association...............................   176
    National PTA.................................................   177
    Nevada Association of School Psychologists...................   181
    Public Advocacy for Kids.....................................   183
    Sandy Hook Promise...........................................   187
    Tony Sgro....................................................   189
    SPLC Action Fund.............................................   190
    School Social Work Association of America....................   195
    Dignity in Schools NY........................................   198
    Dignity in Schools...........................................   200
Responses to post-hearing questions for the Record:
    Mr. Schachter................................................   204
    Mr. Gualtieri................................................   207
    Ms. Temkin...................................................   210

 
                      EXAMINING STATE AND FEDERAL
                     RECOMMENDATIONS FOR ENHANCING
                SCHOOL SAFETY AGAINST TARGETED VIOLENCE

                              ----------                              


                        THURSDAY, JULY 25, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Romney, Scott, Hawley, Peters, 
Hassan, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. I would like to call this 
hearing to order. The title of this hearing is ``Examining 
State and Federal Recommendations for Enhancing School Safety 
Against Targeted Violence.''
    First of all, I want to welcome everybody to the hearing 
room. I certainly want to thank our witnesses for taking the 
time for your testimony. In particular, I want to shout out to 
Max and Tom and your families and the other families of the 
tragedies for attending here and for just your unbelievable 
dedication, turning your tragedy into hopefully some positive 
action that can prevent tragedies for other families. It is 
just remarkable what so many of the families have done in 
reaction to so many of these tragedies, which really date back 
to about 1998 when we really had sort of the first directed 
attack. The number was 56. I know in your testimony, Sheriff, 
you are talking about 710 shootings since Columbine in 1999. At 
Columbine, 13 people were killed--12 students, 1 teacher. 
Twenty-one were injured. At Sandy Hook, in 2012, 26 killed, 2 
were injured. And Parkland, at Marjory Stoneman Douglas School, 
17 killed and 17 injured.
    The death and casualty toll is simply unbelievable, quite 
honestly. I grew up in the 1950s and 1960s. We were concerned 
about nuclear holocaust. We would hold drills and we would tuck 
ourselves under our desks. We never had to worry about somebody 
entering our school and opening fire.
    So this is a tragedy in terms of the lives lost, people 
injured, the families destroyed. But it is a tragedy from the 
standpoint of the psychological effect on our Nation, on our 
States, on our schools, on our children and our families. And 
so what I am hoping this hearing will be about is take a look 
at the thoughtful recommendations of so many of these 
commissions that have been established afterwards, both State 
and the Federal Government one, with the help of parents and 
families that have experienced these tragedies.
    I want to ask the question: To what extent have these 
recommendations, these common-sense, obvious recommendations, 
to what extent have they been implemented? And if they are 
not--and I know they are not universally implemented--what is 
the holdup? And what can we do to make sure that we can take 
some of these obvious, relatively simple actions as at least a 
first step to, if not completely prevent these things from 
happening in the future, at least mitigate the casualties when 
one of these attacks occurs?
    I think moving forward, what I want the result from this 
Committee hearing to be is let us, again, take a look at all 
the recommendations, let us find out what is common. What do we 
agree on? It is something this Committee does a pretty good job 
of. There are plenty of differences. There are all kinds of 
things that Gary is wrong about. [Laughter.]
    But what this Committee is pretty good at doing is we 
identify a problem, we figure out, OK, well, what do we agree 
on? What is a common-sense solution that we agree on? Kind of 
set the divisions, the differences, aside to maybe be brought 
up when it is possible to do so.
    I want to really examine: What are the most effective 
actions that we can take that we agree on? What are the fastest 
and the easiest to implement? Part of that equation will be, 
what is the most cost-effective, too? Let us do those things.
    I always go back to after September 11, 2001 (9/11). I 
really think the most cost-effective and the most effective 
action taken after 9/11 was we just hardened the cockpit door. 
We have all this other security theater and Transportation 
Security Administration (TSA) and, we spend billions. But the 
most effective thing is we just hardened the cockpit door. So 
let us make sure in schools we are at least doing that.
    This Committee does not have a whole lot of legislative 
jurisdiction, but in this space there may be some that we can 
consider. So we certainly want to do everything we can do as 
part of this Committee in addition to holding this hearing to 
highlight the issue and examine these recommendations.
    So, with that, I will turn it over to Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Well, thank you, Mr. Chairman, for holding 
this hearing today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appear in the Appendix 
on page 39.
---------------------------------------------------------------------------
    This is an extremely important and difficult conversation. 
There is no question that schools must be safe places for 
children to learn and to grow. And every single life lost in a 
school shooting is an unspeakable tragedy.
    As adults and as policymakers, our number one 
responsibility is to protect our children. And we are failing.
    I want to recognize the many survivors that we have with us 
today, especially Mr. Schachter and Mr. Hoyer for joining us 
today as witnesses. And thank you for your courage and your 
action.
    I cannot even begin to grasp the incomprehensible pain of 
losing a child to gun violence. I know that I must--and that we 
must--honor the memory of those who are no longer with us by 
taking action to stop these preventable tragedies.
    I am grateful to you both and to Sheriff Gualtieri and to 
Dr. Temkin for helping the Committee better understand how we 
can protect children in our schools and work toward ensuring 
that no other families have to endure the loss of a loved one 
to senseless violence in schools.
    Strengthening safety in our schools is not a partisan 
issue, and I look forward to a productive discussion on the 
actions that we can take to make school campuses more secure, 
improve first responders' capabilities in an emergency, and, 
most importantly, stop these shootings before they ever happen.
    Today's conversation will be about solutions, and we want 
to leave here with a clear road map for addressing this 
problem. We cannot forget exactly who we are doing this for: 
For Alex. For Luke. For the hundreds of children killed or 
injured in their schools. For the families, students, teachers, 
and staff whose worlds have been irrevocably changed by this 
violence. And for the millions of students who will be entering 
classrooms this fall.
    Thank you for being here. I look forward to your testimony 
and our discussion. Mr. Chairman, my office has received over 
32 letters of support for our discussion today on a wide 
variety of topics, and I would like to enter those letters into 
our official record.\1\
---------------------------------------------------------------------------
    \1\ The letters referenced by Senator Peters appear in the Appendix 
on page 71.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    I will ask that my written statement be entered into the 
record.\2\
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Johnson appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    We have a letter from Senator Rubio that will be entered in 
the record as well.\3\
---------------------------------------------------------------------------
    \3\ The letter referenced by Senator Johnson appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    I do want to recognize Congressman Ted Deutch, who is the 
Congressman in Parkland, Florida. We obviously offer all of you 
our condolences and recognize how completely inadequate that 
is.
    We have the unique situation here where your former 
Governor, who established this commission and appointed and 
asked many of you to be involved, is here. Senator Scott would 
like to say a few words and introduce some of the members of 
the audience. I have also asked him to read the list of those 
killed in the Parkland shooting, and then we will have a moment 
of silence after he does that. Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. First, I want to thank Senator Johnson and 
Senator Peters for doing this. What they said is actually 
really true in this Committee. People do work together and work 
hard to get things done. There are a lot of tough issues to 
deal with up here. There is probably not a more important issue 
than the safety of our kids and our grandkids. I have six 
grandsons, and I think about their safety all the time.
    I want to thank all the witnesses for being here today. 
This is not an easy discussion. It was not easy to deal with 
the aftermath, but it is nothing like what these families have 
gone through.
    This February marked the 1-year anniversary of the Marjory 
Stoneman Douglas High School shooting in Parkland that claimed 
the lives of 17 innocent victims. I think there is not a day 
that goes by that I do not think about that day and the amazing 
people that were lost at the hands of a madman. One thing that 
has happened since then is many of these families I have spent 
a lot of time with, and every day you still feel their pain.
    I would like to thank the families, students, and the loved 
ones of the victims who are here today: Max and Tom, Gina, 
Phil, and Debbie and Tony. Thank you all for being here.
    Let us go through a little bit of background. Max's son 
Alex--and, by the way, everybody has a copy of this. They just 
gave me a copy of this this morning, but you can go and see the 
pictures of these kids, and I can just tell you, in the last 
year and a half, you get to know them just by all the stories 
you hear. But Max's son Alex was 14 years old. He played 
trombone in the band at the school. He was very vocal in 
seeking changes at schools and served on the High School Public 
Safety Commission.
    Tom and Gina's son Luke was only 15. He was a sweet young 
man who loved playing sports. A lot of these parents, but his 
parents have been leading efforts to make change, and Gina, 
when we signed the Marjory Stoneman Douglas High School Public 
Safety Act into law, was there with me.
    Tony, if you will stand up so they recognize you. Tony's 
daughter Gina was 14 and a freshman at Marjory Stoneman 
Douglas. She was a member of the school's winter guard team. 
She was known to be a great dancer with an infectious smile who 
made friends everywhere she went. Tony is the president of 
Stand with Parkland, an organization founded by the parents of 
victims, and I attended some of the funerals, and your heart 
goes out to all of them. And, Gina, I should have had you stand 
up. Gina, I should recognize you. Gina is Tom's wife, and they 
are just a sweet family. So thank you for being here. Gina has 
become a good friend of my chief of staff.
    Phil, if you will stand up. Phil's daughter Carmen was a 
dedicated student who wanted to become a medical researcher and 
find a cure for Amyotrophic lateral sclerosis (ALS). She was 
just 16 years old. Both Phil and his wife, April, and their 
family have been incredible activists nationwide. Thank you for 
being here.
    Debbie Hixon. Debbie's husband, Chris, was a loving father 
and United States veteran. He served as the athletic director 
and a wrestling coach at Marjory Stoneman Douglas and made an 
impact on the lives of so many of his students. His legacy 
lives on with the Chris Hixon athletic scholarship, which helps 
further the education of student athletes. This is a story 
about what Chris did to run into danger, without any ability to 
do anything, no weapon or anything, to try to save these kids. 
It is remarkable. So thanks for being here.
    Let me just read off the rest of the names. I have done 
this, and it has always been hard. Alyssa Alhadeff, Scott 
Beigel, Martin Duque Anguiano, Nicholas Dworet, Aaron Feis, 
Jaime Guttenberg, Chris Hixon, Luke Hoyer, Gina Montalto, Alex 
Schachter, Meadow Pollack, Helena Ramsay, Carmen Schentrup, 
Peter Wang, Cara Loughran, Joaquin Oliver, and Alaina Petty--I 
can tell you a story about Alaina. I had actually met her 
family because, after we had Hurricane Irma, her brother, who 
was just up here the other 
day, Patrick, he was going on his 2-year mission--they are 
Mormons--and her dad were working out in Everglade City to do 
cleanup. I remember meeting them before this ever happened.
    Every one of these families, it is just a horrible story of 
just wonderful family members that these families lives have 
been changed forever.
    And so there is no question we have to figure out how to 
change this. The remarkable strength and dedication you all 
have shown in the aftermath of such an unspeakable tragedy is 
inspiring. As we have seen many times, solutions after tragedy 
unfortunately get lost in politics. But there are a lot of 
reasons why this happened, I think, but we were able to cut 
through that in Florida, and I am hopeful that we can continue 
to work together to make our schools safer.
    Sheriff Gualtieri, we have great law enforcement officers 
in our State, and Sheriff Gualtieri is somebody I met right 
after I got elected back in 2010. But the sheriff is very 
dedicated, is a member of the Statewide Sheriffs Association, 
and has been very dedicated in getting good legislation passed. 
But what we did was we put together a group right after it 
happened on Wednesday. By Friday we had put together a group of 
people to work together. One group was educators. One was 
mental health. One group was law enforcement. And by Tuesday 
night, we came up with what we thought we should do, and by 
Friday we made a proposal. And then, fortunately, we were in 
session, and so within 3 weeks we got not exactly what we all 
would have passed. We would have done some things a little bit 
differently. But we got some good legislation passed.
    But Sheriff Gualtieri has a great family. He is a great 
friend. He is a very dedicated public servant. Max was saying 
at breakfast he does not know how he works the hours he does. 
But he has shown incredible leadership for our State when we 
need it, and it is because of people like Bob that we are at a 
48-year low in our crime rate in our State. So I used to brag 
as Governor. Of course, you are supposed to brag as a Governor. 
We did 1.7 million jobs. We had number one higher education, 
and we are at a 48-year low in our crime rate. But we all 
worked together to pass the Marjory Stoneman Douglas High 
School Public Safety Act with the goal of preventing this 
tragedy again. The goal is that it never, ever happens again.
    We also established the commission to work to identify 
issues, and they did an incredible job. Sheriff Gualtieri led 
it, but we had, I think, 15 people or so on it. But Max and 
Ryan Petty, another parent, served on the commission. And this 
commission actually did a good job, and they put out good 
information, and they are still doing things that are going to 
have a positive impact.
    So I think what you all are going to hear today, you are 
going to hear about people that have really gone above and 
beyond to try to change things. Unfortunately, you cannot bring 
back these lives, but I think every one of us, especially when 
we think about this, we think about our children and our 
grandchildren, and we do not want this to ever happen again in 
our country. And I think it is very important that all of us 
take responsibility to do everything we can to make sure this 
does not happen again.
    I was disheartened by a recent report from the grand jury 
on the progress of implementation of safety measures by certain 
Florida schools. It is unbelievably disappointing--I am sure 
they will all talk about this--when we have talked about what 
we need to do and then you see people that, for whatever 
reason, do not take this seriously. I guess they just do not 
think it is ever going to happen in their school.
    So today I am sending a letter to school superintendents, 
board members, and administrators of those schools demanding 
action. I am deeply disappointed in the response, but I am 
confident 
that--and we talked about this a little bit at breakfast. We 
are not going to stop fighting, and I think the right things 
are going to happen long term. Unfortunately, a lot of us 
have--all of us want to be here. It cannot be more important 
than what you guys are going to talk about. But others have to 
be at committees. After I finish, I am going to have to go to 
Armed Services for a mandatory meeting.
    So thank you for being here, and thank you for your 
testimony. And I think every Senator up here cares deeply that 
this does not ever happen again.
    Chairman Johnson. Well, thank you, Senator Scott.
    I think it would be appropriate if we just have a moment of 
silence in memory of and out of respect for those who have lost 
their lives and for those lives have been forever altered by 
these tragedies.
    [Moment of silence.]
    Thank you.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your hand. Do you 
swear that the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Mr. Schachter. I do.
    Mr. Hoyer. I do.
    Mr. Gualtieri. I do.
    Ms. Temkin. I do.
    Chairman Johnson. Thank you.
    As Senator Scott said, there are a lot of competing 
committee meetings. I know Senator Romney and others probably 
are going to have to go in and out. Do not take that as a sign 
of disrespect. It is just how this place does not work.
    But, anyway, our first witness is Max Schachter. Max is the 
co-founder and Chief Executive Officer (CEO) of Safe Schools 
for Alex. Max has advocated for improved school safety and 
security across the Nation and at the highest levels of the 
Federal Government ever since his son Alex was killed at 
Marjory Stoneman Douglas High School on February 14, 2018.
    I was talking to Max before the hearing, and he has--I 
called it his ``rap sheet,'' but if you see the list of his 
activities since he lost his son, it is just unbelievable how 
much time and energy he has devoted to this. So, Max, I look 
forward to your testimony.

  TESTIMONY OF MAX SCHACHTER,\1\ FOUNDER AND CHIEF EXECUTIVE 
                 OFFICER, SAFE SCHOOLS FOR ALEX

    Mr. Schachter. Thank you, Senator.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schachter appears in the Appendix 
on page 49.
---------------------------------------------------------------------------
    My name is Max Schachter. My son Alex was one of 17 people 
that were brutally murdered at Marjory Stoneman Douglas High 
School last year. After I buried my son, my next priority was 
to make sure my other three children were safe in their 
schools. I traveled the country and came to realize that in all 
of the 139,000 K-12 schools in this country, each principal has 
to now become an expert in door locks, access control, cameras, 
et cetera. It made no sense to me that each school had to go 
and reinvent the wheel.
    The idea that crystallized for me was the need to create 
National School Safety Best Practices at the Federal level. 
Those best practices would be housed on a clearinghouse website 
so that all schools had a one-stop shop for all of the most 
relevant and important school safety information.
    I was pleased to see this idea highlighted in President 
Trump's Federal Commission on School Safety report last year. I 
am extremely encouraged that the Department of Homeland 
Security (DHS) is moving forward to create this clearinghouse. 
In fact, they are convening their first meeting July 30, next 
week.
    We know that we cannot prevent 100 percent of these school 
mass murders. But we know that we can absolutely mitigate a lot 
of the risk to students, teachers, and staff when they do 
happen. Every school can do things today that can improve 
school safety. Many of those things are basics that cost little 
or no money.
    Chairman Johnson, I really want to commend you for your 
commitment to focusing on practical solutions that can save 
lives right now and for shining a spotlight on that through the 
hearing that you are holding today.
    In my view, there are two main reasons the national school 
security crisis has continued with no end in sight: The first 
is we do not implement lessons that we have been painfully 
learning for two decades; and, two, we are not being honest to 
parents and communities about the real situation with safety in 
our schools.
    On the first point, we do not implement lessons learned 
from dozens of incidents that have taken place. The State of 
Virginia is a rare exception. After the Virginia Tech massacre, 
Virginia implemented threat assessment teams in all of their 
schools. They used the United States Secret Service's National 
Threat Assessment Center (NTAC) model, and they have not had a 
school shooting since. That is why I support the Eagles Act. 
Unfortunately, no other State besides Florida has followed suit 
and implemented threat assessment teams in all their schools.
    After Columbine, all responding officers were required to 
rapidly deploy directly to the threat. Yet in Parkland, eight 
deputies waited outside for 11 minutes while children and staff 
were being slaughtered in their classrooms. In Parkland, first 
responder radios failed and were not interoperable, delaying 
help for victims. SWAT teams had to resort to hand signals to 
avoid shooting each other because their radios failed. Yet as a 
country we have not truly committed to solving the 
communications problems. We cannot force all agencies to use a 
single radio system, but we can make it possible for them to 
communicate no matter which system they are using.
    After Sandy Hook, each school should have trained their 
students and staff how to respond to active shooters. Sadly, 
many did not. During the 2017-18 school year, Marjory Stoneman 
Douglas High School did not hold a single Code Red drill that 
year, so students and staff did not know what to do when the 
murderer started firing an AR-15 into classrooms and killing 
their classmates. No staff member called a Code Red for 3 
minutes after the shooting had already started. And by then all 
17 people were dead, including my little boy Alex.
    The second sad reality--which most people do not realize--
is that schools are not being truthful about the violence on 
their campus. For example, for the years 2014 through 2017, 
Marjory Stoneman Douglas reported to the State zero bullying, 
zero harassment, zero trespassing incidents, and many other 
zeroes. It is not just Broward County that is inaccurately 
reporting these incidents. This is pervasive across the entire 
country. The result is a false sense of security which leads to 
complacency in implementing school safety best practices.
    On college campuses, the Federal Cleary Act imposes 
financial penalties for inaccurate reporting of campus crime 
statistics. But in K-12 there is such no requirement. The 
result is that when you go online to look at school ratings, 
many of them, including Marjory Stoneman Douglas, have an ``A'' 
rating. Academics are important, but if the children do not 
come home to their families and staff do not come home, nothing 
else matters. That ``A'' rating that Marjory Stoneman Douglas 
has has nothing to do with safety of that institution. There is 
no school safety rating system currently to inform parents and 
teachers of whether or not their school has implemented the 
best practices to prevent and mitigate the number of casualties 
during the next school attack. Schools should not be able to 
get an ``A'' rating like Marjory Stoneman Douglas did if they 
never held a Code Red drill for the entire school year. They 
should not be rewarded if they did not train their teachers and 
their staff what to do during an active assailant emergency. If 
a school safety rating system existed, it would influence 
change nationwide. The car industry's rating system has 
improved car safety and reduced fatalities. Before you buy a 
car, you review their safety and crash test ratings. For 
parents there is nothing. No way to know if your child's school 
is safe or not.
    It has been 20 years since Columbine, and children continue 
to be murdered in their classrooms. We know the next school 
mass murderer is already out there. The next gun that he will 
use is already out there. It is not a question of if; it is a 
question of when. We know what can be done to prevent it, and 
we know what must be done to mitigate the risk of more lives 
being lost. I hope this Committee will help get us where we 
need to be.
    I thank you for your commitment, Mr. Chairman and Senator 
Peters, and I look forward to your questions.
    Chairman Johnson. Thank you, Max.
    Our next witness is Tom Hoyer. Tom currently serves as the 
treasurer of Stand with Parkland, which advocates for public 
safety reforms. Stand with Parkland was formed by the families 
of those killed in the Marjory Stoneman Douglas High School 
attack, including Tom, who lost his son Luke. Tom.

TESTIMONY OF TOM HOYER,\1\ TREASURER, STAND WITH PARKLAND--THE 
       NATIONAL ASSOCIATION OF FAMILIES FOR SAFE SCHOOLS

    Mr. Hoyer. Good morning, Chairman Johnson, Ranking Member 
Peters, and Members of the Committee. Thank you for having me 
here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hoyer appears in the Appendix on 
page 51.
---------------------------------------------------------------------------
    My name is Tom Hoyer, and I am the treasurer of Stand with 
Parkland-The National Association of Families for Safe Schools. 
Stand with Parkland was founded by the families of the children 
and spouses murdered in the Parkland school massacre, and I 
appear today on behalf of our organization.
    We are fundamentally a nonpartisan group. The safety of our 
kids and teachers in schools is not a political issue. We are 
willing to work with anyone who shares our goal for safe 
schools, and we appreciate your decision to hold this hearing 
today.
    I am here today because I lost my youngest son, Luke, on 
February 14, 2018. He was one of the 17 wonderful souls who was 
murdered at Marjory Stoneman Douglas High School in Parkland, 
Florida. My son was one of the first to die. The police tell me 
that he felt the impact of the bullets before he heard the 
shots. One moment he is standing outside a classroom looking 
forward to the end of the school day, carefree. And the next 
moment he is on the floor, unable to move and dying. Many times 
I have wondered what his last thoughts were. I think about my 
wife, Gina, who gave birth to Luke 15 years earlier and who had 
to watch the casket close on her youngest son.
    This is my story. There are 16 others just like it in 
Parkland. The murder of our beloved spouses and children while 
at school was devastating. Our families are forever changed. 
Our community is forever changed. The trauma of that day haunts 
all the survivors--the students, the teachers, and the first 
responders.
    Our experience in Parkland has led us to conclude that 
there is no single solution that can effectively solve this 
complex problem. That is why Stand with Parkland advocates for 
three key goals: securing the school campus, improving mental 
health screening and support programs in the schools, and 
responsible firearms ownership.
    The first element of our platform is bringing people 
together around the idea of securing the school campus. Our 
schools need a clearinghouse of best practices that they can 
use as a tool, and our country needs Federal minimum school 
safety standards such as a single point of entry on a school 
campus. We also need to explore Federal funding for school 
security enhancements through national infrastructure bills.
    The next element of our platform is improvement mental 
health screening and support programs. We need funding to 
promote suicide intervention programs because more than two-
thirds of mass shooters are suicidal. We also need 
congressional action to relax regulations so that schools, law 
enforcement, and mental health professionals can share 
information.
    My son's killer was known to the school. He was known to 
the sheriff's office, a local mental health agency, and the 
Federal Bureau of Investigation (FBI). He was known as an 
angry, violent, and potentially dangerous person. My son and 16 
other innocent human beings are dead because these agencies 
never shared information. They never connected the dots. And in 
order to effectively address these potential risks, we have to 
fund research into threat assessment tools and practices. The 
Eagles Act, which is bipartisan, does exactly that. We urge you 
to support and act on that legislation.
    The last component of our platform is responsible firearms 
ownership. We must find ways to keep firearms out of the hands 
of those who should not have them. This starts with enforcement 
of existing laws.
    Another important step is safe storage of firearms at home 
where many school shooters obtain their weapon.
    An additional tool is extreme risk protection orders, or 
red flag laws, which empower family members or law enforcement 
to get a court order and temporarily remove firearms from a 
potentially dangerous situation.
    Finally, we need comprehensive background checks, including 
for sales that occur online.
    These three goals--securing the school campus, improving 
mental health screening and support programs, and responsible 
firearms ownership--can stem the tide on school shootings. Last 
year we took important first steps on school safety with the 
bipartisan passage of the Stop School Violence Act and Fix 
National Instant Criminal Background Check System (NICS) Act. 
Additionally, although we do not agree with all of its 
recommendations, the recently issued report of the Federal 
Commission on School Safety was one of our Government's most 
comprehensive pieces on school safety ever. However, this is 
not an academic discussion. Kids and teachers have been dying. 
School starts in less than 2 months. Now is the time to build 
on the progress that we made last year. Please do not let 
another anniversary of my son's death and the death of 16 
others pass without concrete steps toward making our kids and 
teachers safe in school.
    Again, thank you for the opportunity to appear today. We 
appreciate your decision to hold this hearing to advance the 
discussion on school safety.
    Chairman Johnson. Thank you, Tom.
    Our next witness is Bob Gualtieri. Sheriff Gualtieri has 
served as the sheriff of Pinellas County, Florida, since 2011. 
Sheriff Gualtieri also serves as vice president of the Florida 
Sheriffs Association and on the Board of Directors of the Major 
County Sheriffs of America. In 2018, then-Governor Rick Scott 
appointed him to serve as the Chair of the Marjory Stoneman 
Douglas High School Public Safety Commission. Sheriff.

  TESTIMONY OF THE HONORABLE BOB GUALTIERI,\1\ CHAIR, MARJORY 
  STONEMAN DOUGLAS HIGH SCHOOL PUBLIC SAFETY COMMISSION, AND 
               SHERIFF, PINELLAS COUNTY, FLORIDA

    Mr. Gualtieri. Good morning, Mr. Chairman, Ranking Member 
Peters, and Members of the Committee. Thank you for the 
opportunity to appear today and share some thoughts about 
school safety.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gualtieri appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    For the last 16 months, I have chaired the Marjory Stoneman 
Douglas High School Public Safety Commission. We submitted a 
500-page report to the Florida Governor and the legislature 
regarding what happened at Stoneman Douglas on February 14, 
2018, and made recommendations on how to improve school safety.
    It is debatable whether the incident at Stoneman Douglas 
was entirely avoidable, but what is not debatable, in my view, 
based on the evidence, is whether the harm could have been 
mitigated. Simply put, the shooting did not have to be as bad 
as it was.
    Thirty-four people were shot and/or killed in 3 minutes and 
51 seconds in Building 12 of the Stoneman Douglas campus, with 
24 of those shot and/or killed in 1 minute and 44 seconds on 
the first floor alone.
    Missed intervention opportunities, ineffective safety on 
the part of the school, and an ineffective law enforcement 
response contributed to the magnitude of this tragedy. At the 
time of the shooting, the Broward County Public Schools did not 
have an active shooter response policy. There had been no 
active shooter drills on the Stoneman Douglas campus in the 
year before the shooting. There had been only one minimal 1 
hour of training for school staff, and that occurred just a few 
weeks before the shooting. There had been no formal training 
for the students. Gates at the Stoneman Douglas campus were 
left open and unattended, building and classroom doors 
unlocked, and teachers and staff lacked adequate communication 
infrastructure. In fact, the shooter shot and/or killed all but 
two of his victims before the first staff member on the 
Stoneman Douglas campus called a Code Red to alert others of 
the active shooting that was occurring that day. People simply 
did not know what to do or how to do it because there were no 
policies, no drills, and little to no training.
    Please keep in mind that this was the state of school 
security in Broward County, Florida, the second largest school 
district in the third largest State, 19 years after Columbine 
and 6 years after Sandy Hook.
    As to the law enforcement response, the school resource 
officer (SRO) stood by outside, hiding in a place of personal 
safety while the shooter shot and/or killed 10 people on the 
third floor. The SRO never went in the building that day, and 
he hid for 48 minutes before leaving the area. Several other 
Broward County sheriff's deputies stood by outside the school 
despite hearing gunshots, and they, too, did not enter the 
school in an effort to save lives. The SRO and several of the 
deputies have been fired, as they should have been, and the SRO 
has been criminally charged for his inaction.
    We have made improvements in school safety, but we have a 
ways to go. As much of the talk of the day is on prevention, 
which should be the goal, the immediate emphasis and urgency 
must be on harm mitigation, and there is a difference between 
the two.
    The hard thing to say, but it is the reality, is that it 
will happen again, and the question is when and where. But the 
most pressing question, the big question, is: What are we doing 
differently today to drive a different outcome than what 
happened at Marjory Stoneman Douglas High School on February 
14, 2018? Because we must have a different outcome. Thirty-four 
people shot and/or killed in 3 minutes and 51 seconds is 
unacceptable. Today there is not full compliance with the laws 
in Florida and the best practices that make our schools safe. I 
do not believe that this void is limited only to Florida 
schools. I believe the noncompliance is caused in part by 
complacency and an attitude that it cannot happen here. 
Remember, we are 20 years post-Columbine.
    The Broward County School District, ground zero for this 
mass killing, just passed its first ever active shooter 
response policy in February 2019. It took more than a year 
after the Stoneman Douglas shooting for the Broward County 
School District to enact that policy, and that is unacceptable.
    There has to be a sense of urgency and an immediate focus 
on the main tenets of harm mitigation, and those are 
identifying the threat, communicating the threat, and reacting 
to the threat. All schools must immediately have effective 
active shooter response policies. They must train their 
personnel to identify threats, empower all personnel to 
communicate a threat, have adequate communication 
infrastructure so that all students and staff can receive 
messages of a threat, and there must be regularly conducted 
drills so that students and staff know how best to react to a 
threat.
    We cannot be here 20 years from now, like we are today, 20 
years post-Columbia, talking about the voids and the most basic 
concepts of school safety that should have been implemented 
years ago. Most, if not all, of these basic school strategies 
cost little to nothing to implement. They only require the will 
of a decisionmaker to ensure it happens, and, unfortunately, 
that has not occurred across the board. There has to be 
accountability for those not immediately implementing the basic 
school safety necessities.
    I encourage you to use your power and require any school 
district receiving Federal funding demonstrate compliance with 
certain basic and core safety components as a requirement to 
receiving Federal money.
    Thank you for the opportunity to appear before you today, 
and I look forward to fleshing out how we can do a better job 
of making sure what must be a daily priority across this 
country, and that is that our kids are as safe as they can be 
in our Nation's schools. Parents have a right to expect that 
when they send their kids to school in the morning, they come 
home alive in the afternoon, and we need to meet that 
expectation.
    Thank you.
    Chairman Johnson. Thank you, Sheriff.
    Our final witness is Dr. Deborah Temkin. Dr. Temkin is the 
senior program area director for Child Trends. She also serves 
as a senior adviser to Federal Technical Assistance (TA) 
Centers that are devoted to student health and school safety. 
Prior to her work at Child Trends, Dr. Temkin directed the 
Federal initiative on bullying prevention at the U.S. 
Department of Education. Dr. Temkin.

   TESTIMONY OF DEBORAH TEMKIN, PH.D.,\1\ SENIOR DIRECTOR OF 
                EDUCATION RESEARCH, CHILD TRENDS

    Ms. Temkin. Thank you. Chairman Johnson, Ranking Member 
Peters, and Members of the Committee, thank you for holding 
this important hearing to identify effective ways to keep 
students safe in school.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Temkin appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    I cannot imagine the pain of losing a child or surviving a 
school shooting. As a parent, in addition to a researcher, I 
share my fellow panelists' commitment to ensuring that our 
schools are safe. The tragedies at Parkland and elsewhere 
shocked our collective system. We can--and we must--do more.
    I have dedicated my career to identifying evidence-based 
strategies to improve school health and safety, and through 
that work I offer three recommendations:
    First, maintain the decades-long trajectory of school 
safety initiatives that encourage States and communities to 
address the full spectrum of issues that contribute to school 
violence. The research is clear. To keep students safe at 
school, we must prioritize their overall well-being. Preventing 
school violence requires an investment in building a positive 
school climate as well as building skills to form healthy 
relationships.
    Several Federal investments in safe schools were built upon 
this research and showed significant improvements in school 
safety measures. Beyond competitive grant programs, schools--
and the policies that support them--have fundamentally shifted 
toward making student wellness a priority. This includes 
expansion under the Every Student Succeeds Act (ESSA) to 
include an indicator of school quality and student success and 
to fund the Student Success and Academic Enrichment formula 
grant program.
    School violence has gone down over the past 20 years. The 
percentage of 9th to 12th graders who carried a weapon on 
school property significantly decreased from about 7 percent in 
1999 to just under 4 percent in 2017. For this group, over the 
same time period, the percentage of physical fights on school 
property also decreased from about 14 percent to 8.5 percent. 
It is more difficult to ascertain a trend in school shooting 
incidents, in part because, while devastating, they are 
statistically rare occurrences.
    Although progress has been made, there is clearly much more 
we can do. No community should ever have to experience a school 
shooting. Three movements are bringing us closer to this goal. 
first, increased awareness of the prevalence of adverse 
childhood experiences and their potential for resulting trauma; 
second, further integration of social, emotional, and academic 
learning; and, third, the bridging of school and community 
resources through integrated student supports.
    My second recommendation is to limit strategies that could 
harm students and communities. It may seem logical that adding 
security technology or additional law enforcement would prevent 
a school shooting, but the research we have is mixed, at best. 
Security measures are often designed to keep the bad guys out. 
But history shows us that the vast majority of school shootings 
are perpetrated by current students at the school--students who 
know the security procedures, as well as the blind spots.
    The effectiveness of school-based law enforcement, access 
control, metal detectors, and other security measures on 
improving school safety has not been well researched. We do 
know, however, that many schools that experience active shooter 
incidents over the past 20 years had security measures in 
place. Certain forms of security may help and pose little risk 
to students. These include strategies such as identification 
procedures or basic lockdown drills, which are different than 
active shooter drills. Emerging evidence, however, suggests 
that more intensive security measures in schools may lead to 
unintended consequences, including increased levels of fear 
among students and staff, decreased perceptions of school 
safety, increased student referrals to the criminal justice 
system for minor offenses, and, particularly for low-income 
students, reduced academic achievement.
    Active shooter drills are particularly concerning. These 
drills often use actors to portray a school shooter using 
realistic guns and plastic bullets. We do not know whether 
these drills work. In addition, researchers and educators alike 
are raising concerns that such drills may traumatize the school 
community or de-sensitize students to the seriousness of an 
attack. We need to know much more about these intensive 
security measures before risking our children's well-being.
    My final recommendation is ensure there are mechanisms to 
assess the impact of school safety strategies. There is still 
much to learn about keeping schools safe. Research allows us to 
understand whether finite resources are being spent effectively 
and where improvements could be made.
    In Fiscal Year 2018, funds were reallocated away from the 
Comprehensive School Safety Initiative out of the National 
Institute of Justice, which was the only dedicated funding 
stream to support school safety research. Without such research 
support, we will continue to debate the issues raised today.
    I will close with this: Our children go to school to learn. 
When our children are afraid and when we tell them they should 
be afraid by installing metal detectors, hiring security 
officers, and requiring active shooter drills, it becomes 
harder for them to learn. Making school safe is not about 
turning schools in fortresses to keep the bad guys out. Our 
children's safety is paramount, and that safety must start from 
within the school itself. To truly make schools safe, we must 
prioritize mutual trust and provide the social, emotional, and 
academic supports that prevent violence and help our kids 
thrive.
    Thank you.
    Chairman Johnson. Thank you, Dr. Temkin.
    I am going to yield my questioning slot to Senator Scott.
    Senator Scott. Thank you. Thank you all for being here. And 
for Tom and Max, it has to be hard to talk about it. Just 
listening to it is hard.
    One person I want to recognize is Hunter Pollack. Hunter, 
if you would stand up. He lost his sister, Meadow, who was 18 
at the time, and she died trying to save another student. So 
thank you for being here, Hunter.
    Sheriff Gualtieri, what do you think is the most important 
takeaway from your commission?
    Mr. Gualtieri. I think, as in my remarks, it is that it did 
not have to be as bad as it was. Harm could have been mitigated 
if there was not complacency and people had done what they 
should have and learned lessons from what happened 20 years 
ago. The law enforcement response was ineffective. When you 
have a district that a particular school had done no drills, 
had done one minimal training, people did not know what to do 
or how to do it. I think that was shocking to us as we 
uncovered and looked at the facts and the evidence. And there 
is still too much complacency and not enough being done. They 
say they take it seriously, but as I say, the proof is in the 
pudding and the proof is in the actions, not what you say. And 
to this day, there is not enough being done.
    As I said, when I appeared before the Broward County School 
Board in February of this year, in the last week of February, 
it was not until the week before that--it took them a year to 
pass an active shooter policy. There are other districts in the 
Florida within the last couple of months that still do not have 
active shooter response policies. You have districts that are 
not compliant with the law to have a safe school officer on 
every campus. You have schools that do not have threat 
assessment teams.
    So the lack of compliance with the basic tenets I think is 
the most shocking and I would say appalling to me that we 
uncovered.
    Senator Scott. So, Sheriff Gualtieri, we have 67 school 
districts in Florida. We know the way ours is. And I do not 
know if every State is set up this way, but every county has an 
elected school board, and they have a lot of autonomy, and then 
probably, what, Sheriff, about half of them are elected 
superintendents and half are appointed by the school board 
probably. So they have a lot of autonomy. So everything that we 
all worked hard to get passed, it did not get implemented by 
the State. It has to get implemented locally.
    So what is your experience so far? Who is the best? Who is 
your biggest disappointment in implementing? Just forget what 
everybody is trying to do is come up with the right ideas, just 
doing the things that we said you had to do.
    Mr. Gualtieri. Well, there are some that are doing it well. 
I can tell you as an example one that I think is doing it well, 
and I just came from there before I came here this week, which 
was Pensacola and Escambia County. I think that they have 
stepped up, and the superintendent there gets it, and they have 
implemented the right policies and procedures. We have other 
counties, probably the ones that are most problematic as we sit 
here today where we are seeing the most voids as far as 
compliance with it would be in South Florida, in Miami-Dade, 
Broward, Palm Beach. And there are some others.
    Recently, up until a couple of months ago, in Orange County 
they were not complying with the requirement that there be a 
safe school officer on every campus.
    Senator Scott. So the legislation we passed required there 
be a public safety officer at every school. And so what were 
they doing?
    Mr. Gualtieri. So the law----
    Senator Scott. It is a requirement of the State law, and we 
provided funding for this.
    Mr. Gualtieri. Correct, and you provided as the Governor 
and the legislature provided $67 million. What the law said was 
that there has to be assigned to every charter, elementary, 
middle, and high school campus a safe school officer. And they 
interpreted the word ``assigned'' to mean assigned on paper and 
they do not have to be there. This is the type of manipulation 
and disingenuous approach that is maddening and it is 
upsetting, because, what a legislative body supposed to do, 
this Congress or a State legislature, is you pick words, and 
clearly the intent was that there be a good guy with a gun, a 
safe school officer on every campus. And so you had lawyers, 
who are part of the problem--and I say that as a lawyer because 
they are not doing a service to the people that they are 
representing. When they interpret words of ``assigned'' and 
they go through these machinations and say, well, ``assigned'' 
can be interpreted to mean you do not have to have somebody 
there. Tell that to one of these parents who somebody has to go 
knock on the door because they had one deputy for six campuses 
because they did not follow the law. It is just not right. And 
this is the type of attitude that has to change.
    Senator Scott. So, Sheriff, talk about the fact that if 
they had done an active shooter drill at Marjory Stoneman 
Douglas, where would the students have gone when they know 
there was a shooter in the room? And where did the students go?
    Mr. Gualtieri. So, unfortunately----
    Senator Scott. It is so simple.
    Mr. Gualtieri. Right. So they had not identified any of the 
safe spaces or what some people call ``hard corners'' in 
classrooms. And simply the teachers and the staff did not know 
what to do or how to do it. And for those that did try and get 
the kids into those safe spaces or the hard corners in the 
classrooms is they were full of stuff, meaning bookshelves and 
desks and immovable objects. And it is a hard thing to say. It 
is a very hard thing to say. But kids died on the line because 
they could not get into the hard corners, because they were 
being pushed out by others because they were so full.
    There were two kids who were unable to get into one of 
those safe areas, and they were hiding behind a TV set and a 
filing cabinet at the other end of the classroom. TV sets and 
filing cabinets do not stop AR-15 rounds. Both of those kids 
are deceased. If they had been able to get in those safe areas 
or hard corners, this harm would have been mitigated, and it 
would not have been as bad, because the shooter that day never 
went into any one classroom. He only shot people that he could 
see, line of sight, only shot people in hallways. So when he 
looked through the doors, the windows in the doors, and he saw 
people, he shot them. If they were in the hard corners--because 
it worked on the second floor. The shooter was on the second 
floor for 41 seconds. He fired rounds. He did not shoot or kill 
anybody on the second floor because they had an opportunity to 
respond appropriately.
    So what we teach works. The first floor, 24 people shot 
and/or killed. Third floor, 10 people shot or killed. Second 
floor, nobody. So what it is implemented, it works.
    Senator Scott. But, Sheriff, go through it. So by the third 
floor, did they know that there was a shooter and know what was 
going on and how long had he been there?
    Mr. Gualtieri. The third floor initially treated it as a 
fire drill, and when I met with some of your staff, Chairman 
Johnson, I showed them some of the photos. If anybody sees the 
photos of the third floor, it was wall to wall, shoulder to 
shoulder kids, because nobody communicated anything to them 
other than it was a fire drill because the fire suppression 
system was activated, and nobody communicated. So the first 
floor, they got caught off guard. Second floor, they heard the 
gunshots. Third floor, if the shooter arrived on the third 
floor at the time he arrived on the second floor, he had over 
200 AR-15 rounds left, and it was wall to wall, shoulder to 
shoulder, thick, kids, we would be having a much different 
discussion, and it would be worse than Vegas.
    So because of the lack of communication, because of the 
lack of training, because of the lack of policies, because of 
the lack of so much, it was as bad as it was. And it could have 
been worse.
    Senator Scott. So I know my time is up, but what is 
frustrating is that there is a lot of--whether it is the FBI--I 
do not know. Do you want to talk about--the FBI had two 
instances before this happened. I was a Governor for 8 years, 
had five mass shootings, and I think in every case the FBI had 
prior warning. As far as you know, who has been held 
accountable at the FBI for not--was it about 30 days ahead of 
time?--not passing on the tip to the FBI, to their hotline, and 
not passing it on to the--I guess it would have been the Miami 
office. Have you heard of anybody being held accountable?
    Mr. Gualtieri. No.
    Senator Scott. Nobody. All they had to do was pass it on, 
make one phone call, send an email. Nothing happened, is my 
understanding, and nobody has been held accountable. This is 
just disgusting. And how do we know if anything has changed?
    Well, thanks for being here.
    Chairman Johnson. Thank you. Senator Peters.
    Senator Peters. Thank you for all of your testimony. 
Powerful testimony.
    Dr. Temkin, in your testimony you stated that school 
shootings are the extreme end of the continuum of violence, and 
so I want to talk a little bit about some of the evidence 
behind that statement as we try to drill down on evidence-based 
solutions here.
    What does the data tell us about who the perpetrators of 
school shootings are likely to be?
    Ms. Temkin. So, unfortunately, there is no one profile of a 
school shooter, and this is actually coming directly from the 
FBI, having examined several of the previous school shooting 
incidents. Previous school shooters have been popular; they 
have also been loners. School shooters have been both female 
and male. We cannot necessarily say that there is any one 
particular profile that is going to lead to someone becoming a 
school shooter, but there are certainly warning signs and 
risks, and those include both the intra individual as well as 
the contextual risks toward school violence.
    We know that when communities have increased levels of 
trust, students are not likely to bring weapons to school, and 
they are much more likely to report to school officials when 
they suspect that there is a threat from one of their peers. 
This is why it is so important for us to actually focus in on 
building a positive school climate as a way for prevention.
    Let me be clear. I am not saying we should not invest in 
school security measures, but I think that is only one part of 
a much broader effort to actually create safe schools, and we 
need to make sure that as we are implementing safe school 
measures, they are not going to cause harm to our children.
    Senator Peters. So are these perpetrators of school 
shootings, are they outsiders, or are they folks from within 
the school?
    Ms. Temkin. The vast majority of school shooters have come 
from within the school, either current students or, as in the 
case of Parkland, a former student. These are students who 
would very likely know exactly what the school is doing for 
school security measures, and if they are determined to do 
something at that school, probably would find a way around 
that. I think that is why it is so important for us to focus 
both on prevention as well as securing our schools.
    Senator Peters. Well, if they are from the school and they 
may know safety measures or they may know drills, I think is 
what you are saying, then how do we design systems given that? 
What is your recommendation?
    Ms. Temkin. I think we absolutely need to continue doing 
things to help secure the school. But I think we have to really 
invest in actually trying to get to the root causes of the 
violence. So we need to help students identify challenges and 
provide supports. That is really the theory behind threat 
assessment, which says that when there is a viable threat, we 
need to identify what those challenges are and find the 
supports that are actually going to prevent that student from 
carrying out those threats.
    Senator Peters. Mr. Schachter, I would like to acknowledge 
first your vision and the work in the establishment of a 
Federal clearinghouse for best practices that will benefit all 
schools, and you talked a great deal about that in your opening 
statement, and I appreciate that. And as you know, the 
Department of Homeland Security, along with a number of Federal 
partners, is going to be releasing this report in the next few 
months, hopefully sooner rather than later.
    But my question is: What are you specifically watching for 
as the DHS implements this clearinghouse and other specific 
aspects that you believe are most critical for us to use as a 
tool and you are hoping to see in the best practices?
    Mr. Schachter. Yes, so on July 30 will be our first 
meeting, and we are inviting over three dozen different 
stakeholders from all different aspects--mental health, law 
enforcement, superintendents, everyone. All the stakeholders 
need to be at the table so that we can sit down and come up 
with national school safety best practices. There are common-
sense solutions that--lessons learned that came out of 
Columbine, Sandy Hook, and now Parkland that need to be 
implemented. And so if we have everybody agreeing and have buy-
in, I am hoping that, once we establish these best practices, 
it will be put up on a Federal website, and then that will be 
implemented through all States and into school districts across 
the country.
    But that is my main concern, that we need to ensure that 
the school districts adopt these best practices as soon as 
possible. We cannot let another day go by where lessons learned 
that will save and mitigate lives and prevent these school 
tragedies do not get implemented. And, hopefully, once we have 
these best practices, they are going to be tied to the grant 
dollars, because that is a major problem right now.
    To give you an example, Broward County got half a million 
dollars to implement analytic cameras last year, and they did 
not even have a formal active assailant response policy. In the 
Marjory Stoneman Douglas Public Safety Commission that I am on, 
we developed tiers, so Tier 1 would be low-cost/no-cost 
measures that every school can implement. No matter if it is a 
school in Iowa or a school in Miami, they should implement 
those. And then Tiers 2, 3, and 4 would be more expensive and 
longer-term implementation. So schools should not be 
implementing a Tier 4 strategy--in other words, analytic 
cameras--if they have not done the basics, if they have not 
installed a formal active assailant response policy. So once we 
have those best practices, they need to be tied to the grant 
dollars to ensure compliance.
    Senator Peters. Alright. Thank you.
    Mr. Hoyer, in your testimony you discussed the role that 
the U.S. Secret Service's National Threat Assessment Center has 
played in advancing research used by threat assessment teams. 
Mr. Schachter, I think you discussed that as well in your 
testimony. So for both you, starting with Mr. Hoyer, but also 
Mr. Schachter as well, what role should threat assessment teams 
play in the overall safety landscape as you have looked at 
this?
    Mr. Hoyer. As I look at it, I think it is a pretty central 
role. It is one of the prevention measures. In our situation, 
the shooter had around 69 interactions, disciplinary 
interactions with the school. He had 21 calls from the police, 
numerous sessions with a local mental health agency. I cannot 
help but think if months or years before somebody had done a 
threat assessment on this shooter that my son would still be 
here. I think it is critically important to step in and try to 
help those individuals, but also, if you cannot, know who they 
are and deal with them appropriately.
    Senator Peters. Alright. Thank you.
    Mr. Schachter, I know you mentioned this as well. Would you 
like to add anything to the threat assessment team?
    Mr. Schachter. Yes, absolutely. It is critical--we have 
identified a major gap, that these information silos, you had 
this violent individual from age 3 that had a tremendous amount 
of disciplinary actions inside the school, and then you had all 
these law enforcement interactions. Well, these were two silos 
that were never connected, and so these threat assessment teams 
that were instituted after Virginia Tech and now after Florida 
are to be to sit down and be proactive, not reactive. And I 
would recommend threat assessment teams in every State in every 
school. They will save lives. And so that is why I support both 
the Eagles Act, which will reauthorize the National Threat 
Assessment Center inside Secret Service, and also the Threat 
Assessment, Prevention, and Safety (TAPS) Act as well.
    Senator Peters. Alright. Thank you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair and Ranking Member 
Peters, for your continued attention to the issue of school 
safety.
    First, I just want to thank all of today's witnesses for 
taking the time to speak with us and to help ensure that our 
children are protected as we make our schools safer.
    A special thank you to Mr. Schachter and Mr. Hoyer for your 
tireless efforts to honor your children and to protect and 
support all of our children.
    And to all of the other family members who are here today 
who have lost their loved ones, I thank you as well for being 
here and for adding your voices and your presence and your 
witness to this issue.
    Mr. Schachter, I would like to start with a question for 
you. I share your view that we need to acknowledge that school 
shootings pose a very real threat that impacts communities 
nationwide, and that we need to focus on what we can do to 
protect students and prepare them for the unimaginable.
    I became Governor of New Hampshire shortly after the horror 
of the Sandy Hook shooting, and in New Hampshire, we took 
action. The State Department of Safety worked to expand a 
number of school safety initiatives, including a statewide 
initiative to improve school emergency notification systems, to 
improve security assessments for schools, and to improve 
information sharing between schools and first responders.
    The notification system reduced law enforcement response 
times by allowing the school computers to connected directly 
with dispatch and notify law enforcement officers closest to 
the school during an emergency. The State also worked with 
schools to conduct security assessments to identify gaps in 
safety that could be addressed.
    Mr. Schachter, I know you have talked about some of this 
today, but in your work through Safe Schools for Alex, have you 
found that these kinds of measures are important in ensuring 
that schools and local law enforcement are more prepared in 
case of an emergency?
    Mr. Schachter. Senator, you are 100 percent correct. 
Unfortunately, in our commission we did an analysis of the last 
20 years of active shooters, and what we found was that a 
majority of these shootings are over in 4 to 5 minutes. As the 
sheriff talked about, in 3 minutes and 51 seconds everyone was 
dead. And, unfortunately, even though our law enforcement will 
do their best to try to get to the scene, they are not going to 
get there in time. Even if the SRO on campus was a courageous 
individual, which he was not, it still took him a minute and 44 
seconds on a golf cart to get to the front of that building. By 
the time that happened, 24 children and staff were already shot 
and/or killed.
    So law enforcement is not going to get there in time. That 
is why an immediate notification to law enforcement is 
critical, and if we look at the safest school in America, in 
Indiana, each teacher wears a key fob on their neck, so in 2 
seconds, depressing that key fob tells law enforcement exactly 
what is happening, and then law enforcement has access to the 
cameras, which Broward County refused to give law enforcement. 
They did now, but law enforcement did not have access to the 
cameras inside the school prior. And then in Indiana, once they 
hit that button and it is depressed, law enforcement can look 
inside the school, see exactly where the school shooter is, and 
has live, actionable intelligence so it knows exactly where to 
go, where to send the officers, and to interdict and stop the 
attack as soon as possible.
    Senator Hassan. Right. And the other critical piece that we 
need to continue to work on is it needs to be the closest 
available law enforcement officer. It should not matter whether 
it is a county sheriff or a municipal officer or a State 
trooper. The fact is whoever is closest needs to be able to get 
that information and respond.
    Thank you again for your work, and I look forward to 
continuing to work with you and all of the witnesses.
    Mr. Hoyer, as you have discussed, we need to focus as well 
on prevention efforts. Prevention includes increasing school 
safety but also recognizing the role of mental health and 
making sure that individuals who exhibit behaviors that are a 
threat to themselves or others do not have access to firearms 
and other deadly weapons. This is one of the reasons that I 
have been a strong proponent of expanding the extreme risk 
protection orders, also called ``red flag'' laws, which allow 
courts to issue time-limited restraining orders to restrict 
access to firearms when there is evidence that individuals are 
planning to harm themselves or others. To do this effectively, 
we also need to make sure that students know where to report 
suspicious activity and how to seek help.
    Mr. Hoyer, in your experience with the National Association 
of Families for Safe Schools, what have you found to be best 
practices for building a comprehensive prevention approach that 
ensures that students experiencing a mental health crisis 
receive the help that they need and are kept as safe as 
possible?
    Mr. Hoyer. It starts with something pretty simple. One of 
the things we are advocating for is suicide prevention or 
intervention. So there are proven off-the-shelf programs out 
there.
    Senator Hassan. Right.
    Mr. Hoyer. Columbia Protocol is one. It used to be called 
the ``Lighthouse Project.'' Columbia Protocol is a fairly 
simple one card, six questions. It tells you the question. It 
tells you how to respond to the answer. And it could be 
anything from ``I will sit here with you for a little while and 
pat you on the back'' to ``I am going to stay here with you 
until somebody comes to help.''
    Senator Hassan. Right.
    Mr. Hoyer. It empowers people, colleagues, family members, 
and friends to actually ask the questions and get people to 
seek help. We are advocating funding and promotion of those 
already proven programs. Our friends at Sandy Hook have a 
program, Start with Hello!, and these programs have existed for 
a while. The one at Columbia Protocol was implemented in the 
Marines. They saw a 22-percent reduction in suicide. I just 
think that starting there, starting with something simple, 
something easy to implement, would be a first step to 
implementing a real comprehensive program, which eventually is 
going to have to include mental health, talking with the 
school, possibly the police, the whole threat assessment that 
we were just talking about.
    Senator Hassan. Thank you.
    Dr. Temkin, I wanted to touch on a couple of points that I 
know you have made. Your expertise in prevention is critical as 
we examine how to balance increasing student safety while 
avoiding unintended effects.
    I am particularly concerned with trauma experienced by 
students and teachers during active shooter trainings and the 
potential for disproportionate impacts on students of color and 
students who experience disabilities. Can you share concerns 
you have with some active shooter drills and how some school 
hardening efforts could result in disproportionate impact of 
certain students? Obviously, we have to balance all of these 
issues, and we all want to make our schools safe. But, again, 
if you can help us understand what those best practices might 
look like and how we could avoid some traumas to students, that 
would be really helpful.
    Ms. Temkin. Absolutely. And to be clear, there have not 
been rigorous evaluations of many of these active shooter 
drills that are what folks call ``multioption'' or may have 
been referred to as ``ALICE.'' These drills can often be very 
realistic such that teachers have reported in media, which, 
without rigorous evaluations, are probably the best that we 
have at the moment, that they have been absolutely traumatized 
by seeing their colleagues get shot with plastic bullets, by 
seeing them trip over each other and saying, this was more 
traumatizing than it was training.
    In terms of disparities, we have to be very careful in 
thinking about both staffing as well as the impact of staffing, 
so particularly when it comes to school resource officers, we 
know that school resource officers, when they are present and 
especially when they are involved in the discipline at school, 
will drive up suspension, expulsion, and criminal justice 
referrals for minor, nonviolent offenses. And we know that 
there is extensive disparities for both students with 
disabilities and students of color in receiving such 
discipline. So we have to be careful when we are recommending 
these that we consider these unintended consequences.
    Senator Hassan. Thank you very much. Thank you all for your 
testimony.
    Chairman Johnson. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you. Thank you, Mr. Chairman, Ranking 
Member Peters. I want to thank Senator Scott for his work in 
bringing you here today.
    As I think about how you must feel as parents, as community 
members or students and children and families and 
grandchildren, the impact on what you experienced in the 
personal level, it has an impact on all of us. And I never want 
to imagine what you have gone through. I never want another 
family to go through what any of these families are going 
through. And I hope sincerely that we can work on honoring the 
loss of your most precious loved ones by our action in the 
future.
    And so I agree with the panel that we have to emphasize 
multimodal approaches to address this issue. It is not just one 
thing. It is many things, because each incident is going to be 
different. Schools have to foster safe and supportive learning 
environments for all students. We have to have an adequate 
number of school-based mental health professionals to reach 
students in crisis, suicidal, angry, whatever that is. You 
cannot learn if you do not feel safe for the other students who 
may be scared of someone who they see that has issues.
    In Nevada, the Nevada Association of School Psychologists, 
they recommend a ratio of one psychologist for every 500 to 700 
students. In Nevada, we have 1 for every 3,000 students. It is 
just a ticking time bomb. And the Nevada Association, they 
really worked with--the school psychologists have worked 
closely with our State legislators. We actually just passed 
recently S. 89 that requires our State Board of Education to 
develop recommendations for ratios of pupils to specialized 
support personnel--counselors, psychologists, social workers, 
nurses--and to develop a strategic plan to achieve those 
ratios. I am going to ask that a letter from the Nevada 
Association of School Psychologists be entered into the 
record.\1\
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Rosen appears in the Appendix 
on page 181.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Rosen. Thank you.
    And so, Dr. Temkin, thinking about this multimodal 
approach, I have a two-part question. How do you think schools 
can work to identify and support students needing more 
intensive interventions to assure they receive the appropriate 
attention before, God forbid, a tragedy could happen? And can 
you speak a little bit to the necessity of Federal support both 
through guidance and funding to support these efforts? Because 
that is what we can do.
    Ms. Temkin. Absolutely. In terms of identifying students, I 
subscribe to a public health model, meaning that universal 
approaches, things like bringing in prevention programs, can 
reach about 80 percent of our students, but about 15 percent 
probably need a little bit more intensive support and about 5 
percent really need targeted interventions.
    When we institute these multitiered systems of support, we 
can actually help identify those students through data 
collection bringing in teams that are not just law enforcement 
but mental health providers to really understand a student and 
identify their challenges.
    One thing I want to flag about threat assessment is that it 
is not just about identifying and eliminating a threat. It is 
really grounded in supports. It is grounded in let us find a 
way to help the students so they can succeed, not just to 
prevent a tragedy.
    In terms of Federal support, we have seen over the course 
of the last 20 years, starting with response to Columbine, a 
series of investments that the Federal Government has made in 
school safety that have really focused on prevention: the Safe 
Schools Healthy Students Initiative, the Safe and Supportive 
Schools grant program in 2010. These really helped schools, and 
we saw significant reductions in school safety indicators, so 
school violence indicators, as a result. But they are very 
limited. We are hopeful to see the results of what is going to 
come from the Every Student Succeeds Act that we have invested 
in Title IV funding. But I should note that the Student Success 
and Academic Enrichment grant program covers a whole host of 
things, not just school violence prevention. So when schools 
are deciding what to use those funds for, they may not be 
investing there either.
    So Federal support and Federal guidance toward where those 
funds would best be prioritized is very important.
    Senator Rosen. And can you speak a little bit more about 
national guidelines and standards for school staffing and the 
evidence behind needing these specialized staff?
    Ms. Temkin. Absolutely. One thing I would flag is that we 
know that it is not just an underrepresentation of school 
psychologists and other support personnel. It is a disparate 
representation. So we know that majority black schools are much 
more likely to have a school resource officer than they are to 
have a mental health professional compared to majority white 
schools.
    Now, this is problematic. Again, as I mentioned, school 
resource officers can perpetuate disparities in school 
discipline. So when your only resource is a school resource 
officer and not a mental health professional, that is going to 
be where your default lies. So we have to balance our 
investments in school resource officers with school mental 
health professionals.
    Senator Rosen. We need to increase our number of mental 
health professionals across the board, I suppose.
    I want to talk about what Senator Hassan talked about, the 
impact--she talked about the trauma on students just going 
through these drills, because it is frightening to come home, 
especially if you have an elementary school. Preschoolers are 
having drills. And so the impact of that is great. But God 
forbid there is a tragedy.
    What is the impact of this trauma going forward on the 
students, the teachers, people who remain who have to continue 
to maybe not go back to that school but have to go back to some 
school, go back to their profession? How do we support people 
who have been through a horrific event like this?
    Ms. Temkin. We need to invest in trauma-informed 
approaches, and that means really acknowledging trauma and 
finding individualized ways to actually help support that 
person to feel comfortable in their environment.
    Now, I will stress there is no one-size-fits-all model for 
any of this. It is going to depend on the particular community 
as well as the particular individual.
    I should say that not everyone responds to traumatic events 
the same way. We talk a lot about adverse childhood 
experiences, for instance, as a driver of trauma, but not every 
child who experiences an adverse childhood experience is 
actually going to experience trauma. And we have to be careful, 
for instance, when we are doing screenings that we are not just 
labeling a child who has experienced something hard in their 
life as someone who is damaged. We have to really tailor this 
to each individual situation.
    Senator Rosen. Thank you. I appreciate your testimony, and 
I think an approach with mental health and school safety in 
hard and soft ways is the way we move forward.
    My time is up. Thank you.
    Chairman Johnson. Thank you, Senator Rosen.
    I want to start with something that I think really 
surprised me to hear, that in the school in Parkland there was 
not controlled access. I visit schools all the time, and there 
is only one point of entry. It is hard for me to get into a 
school. It is also true of most businesses. So is that pretty 
common in Florida? Was that not implemented? I would kind of 
ask my colleagues, do you find the same thing? Do you have 
pretty much one point of entry in your schools? Sheriff, can 
you comment on that?
    Mr. Gualtieri. Yes, it is very inconsistent, and single 
points of entry, fenced campuses are not across the board. It 
is inconsistent. I will give you an idea, and it is also how it 
is implemented.
    At the Stoneman Douglas campus, the campus was fenced, but 
here is the practice: They open the gates for arrival time at 
5:30 in the morning for a 7:40 school start time. They open the 
gates in the afternoon at 2:15 for a 2:40 dismissal, and when 
the gates were opened, they were unstaffed. And we asked the 
question during the investigation: Why? It is just the way we 
have always done it. So why even bother having closed and lock 
gates? Because, as Dr. Temkin said--and she is absolutely 
right--the majority of these--in fact, in the last 20 years, 
there have been 46 targeted attacks on K-12 schools; 43 of them 
were done by insiders, so 94 percent.
    In the case of this situation, the shooter exploited it. He 
knew that that gate was going to be open. He arrived at 2:19 
p.m. The gate was opened at 2:15. So it is inconsistent. And 
when there are gates, if they are not staffed, if they do not 
have somebody standing there that has the adequate 
communication device to alert others, it is all useless.
    So I would say it is very inconsistent. We are making 
progress. It is getting better in some places, but there is 
still a lot of voids.
    Chairman Johnson. So controlled entry would be a Tier 1 
action, correct?
    Mr. Schachter. It depends. In Florida, Marjory Stoneman 
Douglas is a very large campus. There are 13 buildings. And a 
lot of the schools around the country, one building, it is much 
easier to have a single point of entry, to have a visitor 
vestibule or a mantrap, and so it is easier that way.
    Chairman Johnson. You brought up a point I was going to 
bring up with Dr. Temkin. Just basic school size, we have these 
massive schools nowadays versus go back 100 years, single-
room--I am not suggesting we go back to single-room 
schoolhouses, although, things like Acton Academies, I mean, 
there is somewhat of a movement toward that way. I think these 
massive schools are dehumanizing in many respects, and so it is 
pretty easy to understand how kids get lost in this and the 
bullying and that type of thing. Can you just comment on the 
large school sizes? And is that part of the solution, to start 
going toward smaller schools again?
    Ms. Temkin. It certainly could be. I think we should 
definitely do more research into that. The data that I have 
seen is that there is not necessarily a significant difference 
in the rates of violence, I think in part because it depends on 
the investments each particular school is making into both 
school safety and school climate. At least when it comes to 
bullying, as you mentioned, we know that there is really not a 
correlation between school size and rates of bullying.
    Chairman Johnson. I want to kind of go back to Parkland. 
What was notable about that perpetrator is how well known his 
problems were, and it just was not communicated. I know, Tom, 
in your testimony you talked about modifications to, 
relaxation, clarification for the Family Education Rights and 
Privacy Act (FERPA) and Health Insurance Portability and 
Accountability Act (HIPAA). Sheriff, was that part of the 
problem here? Did those Federal laws prevent that sharing of 
information? Was it also just negligence? Or to what extent was 
it both?
    Mr. Gualtieri. All of the above, a combination. FERPA has 
been around for 40 years. It has not been updated. I think 
there is a lot of room and a lot of opportunity to update some 
of that so there can be better information sharing. HIPAA is, 
of course, more recently enacted, but I will say this: As far 
as both of those laws are concerned, they are overly applied by 
the people who are charged with interpreting them and applying 
them, and the exceptions are not as understood as they need to 
be. So there is a lot of room to do more training and to have 
more effective communication so that those dots can be 
connected.
    There are some questions and discussion about behavioral 
threat assessment teams. Behavioral threat assessment teams are 
only as good as the information they receive. If they are not 
receiving comprehensive information that is going to tell the 
whole story, then they are not going to make a good decision. 
So that information sharing and having the laws that allow that 
are vitally important.
    Chairman Johnson. In our system of justice, innocent until 
proven guilty is a bedrock principle. So it is an issue. Just 
what do you do if they are not guilty yet?
    Mr. Gualtieri. Well, and it is not so much--it is true, and 
they are not guilty, but there are things that can be done. I 
think the behavioral threat assessment teams, I would take it a 
step further or maybe a step differently in the behavioral 
threat assessment process. I think if we wait until we have 
threats, we are waiting too long. We really need to get it back 
here where there are behavioral indicators of concern, and we 
need to catch it before it manifests as a threat so that 
something can be done and there can be intervention.
    One of the places that is really lacking is in care 
coordination. You have community-based mental health providers. 
You have school-based providers. You have private providers. 
Many of these kids, we see that they are under multiple 
treatment plans. There needs to be more case management, more 
coordinated care to catch it earlier.
    Also, again, it comes back to identifying the threat and 
doing something about it. There was a campus monitor that saw 
the shooter, and the campus monitor is a security person at the 
school. He saw the shooter walk through that gate unfettered, 
and it took the shooter a minute and 30 seconds to walk through 
the gate to the east door of the building where he walked in 
because it is unlocked. He identified him, eyes to the shooter, 
and said to himself, ``That is crazy boy and he is carrying a 
rifle bag.'' He did nothing about it.
    So this is where the importance of harm mitigation is and 
being able to identify a threat, communicate the threat so 
others can react to it. If they do not know how to identify it, 
then there is nothing to communicate. In this case it was 
identified. He saw him and we have him on tape saying that he 
saw ``crazy boy carrying a rifle bag.'' He knew it was a rifle 
bag. He did nothing about it, so it was not communicated and 
people could not react to it. So it really is a combination of 
things that have to be done.
    Chairman Johnson. I want to follow up on what Senator Scott 
was talking about in terms of the--is it school safety 
officers?
    Mr. Gualtieri. Yes.
    Chairman Johnson. I want to know a little bit more about 
that. So, first of all, what is the profile of a school safety 
officer? Are they supposed to be armed? Are they supposed to be 
former law enforcement, former military?
    Mr. Gualtieri. So the requirement of Florida is that on 
every charter, elementary, middle, and high school campus there 
be what is called a ``safe school officer.'' A safe school 
officer can be a police officer, a deputy sheriff, or a 
guardian. A guardian is not a law enforcement officer, but it 
is somebody that goes through a rigorous background and 
screening process and rigorous training and is that person on 
campus who is authorized under law to thwart that active 
assailant event.
    The guardians could be school employees who perform it as a 
collateral responsibility, so they could be the athletic 
director, they could be the counselor, or they could be the 
principal. Or they could be somebody that is hired dedicated 
just for that role.
    Chairman Johnson. OK. So the State actually allocated 
money. What happened to the money? What was it used for if it 
was not used for a safe school officer?
    Mr. Gualtieri. It is still sitting there because it was--in 
last year's budget, the State allocated $67 million in 
nonrecurring funds, and this year the legislature rolled it 
over again. So of the $67 million that was allocated 
originally, there is probably at least $50 million of it, 
probably more, still sitting there that is available to 
implement the guardian program.
    Chairman Johnson. So schools did not take the money and 
reallocate it to something else?
    Mr. Gualtieri. No.
    Chairman Johnson. They just did not take the money. Was 
there resistance to having an armed individual on--I mean, was 
there that political argument there?
    Mr. Gualtieri. Yes, and the resistance was to the 
guardians. What too many of the school boards, the school 
superintendents, and the district wanted is what they cannot 
have. They wanted only cops. And the reality of it is that that 
cannot happen. First and foremost, in law enforcement today 
probably one of the most pressing challenges we have is 
recruitment and retention. In the State of Florida alone, today 
there are 1,500 openings for police officers. There are 4,000 
schools in the State of Florida, and only about half of them 
have cops. So where are we going to get 3,500 cops? So it does 
not work. You have to use alternatives, and it comes down to 
what can you live with. And the guardians provide a good 
alternative.
    The problem was they did not like it, and so if they did 
not like it, they did not want it, so they threw the ``this is 
an unfunded mandate'' flag--which it was not--and said, ``We 
are just not going to do it.'' And so that has resulted in 
where we are.
    Chairman Johnson. By the way, I think we have a real 
shortage of mental health professionals as well.
    Senator Peters, I have a ton more questions, but I will 
turn it over to you if you have some.
    Senator Peters. I have a couple, and then we can go back.
    Sheriff Gualtieri, the other thing that has been 
highlighted in the after-action report was the problems with 
the communications systems and the interoperability of them. 
Now, these are not new. We hear about that across all sorts of 
law enforcement agencies now, but, obviously, this is 
absolutely critical because speed is a matter of life and 
death, the quicker you get folks and you can communicate and be 
able to find out where that shooter is and coordinate your 
activity.
    So my question to you is: What is your recommendation, what 
can we be doing today to help the communications systems or 
invest in communications systems and coordinate? What sort of 
action should we be thinking about doing in this Committee to 
deal with that problem across agencies, across the country?
    Mr. Gualtieri. So two issues. One would be ensuring that 
there is radio interoperability, which means that all police 
officers and deputy sheriffs and all law enforcement entities 
can speak to each other. That was not the case in Parkland. The 
Coral Springs police officers--Coral Springs and Parkland abut, 
and the south end of the Stoneman Douglas campus is the city 
line between Parkland and Coral Springs. The Coral Springs 
police officers and the Broward County sheriff's deputies who 
provide police services in Parkland could not communicate 
because they did not have radio interoperability. They did not 
have each other's radio channels installed in the radios, and 
they were relying on a system of patching the two channels. But 
you cannot patch that which you do not have. Nobody installed 
the Coral Springs channels in the Broward County console, so 
they could not patch it. So you had two totally separate 
operations. That is unacceptable, obviously, and those types of 
things can be fixed, and they need to be fixed. But there needs 
to be complete interoperability.
    Second is in the 911 centers. Way too many counties in 
Florida and across the country have multiple 911 centers in 
their counties. Most people think--and they are wrong--that 
when you pick up the phone and you call 911, the person who is 
answering your call is going to be able to dispatch help for 
you. That is not true. That was not the case in this situation. 
The first girl who called 911 from the first floor at Building 
12, her 911 call was answered by the Coral Springs Police 
Department because they set it up that 911 calls in Parkland 
went to the Coral Springs 911 center, not the Broward sheriff's 
office 911 center. So that first call that came in was answered 
in Coral Springs. That call taker waited 28 seconds before he 
then transferred it over to the Broward County sheriff's 
office. It took 57 seconds to process the call at the Broward 
County sheriff's office where the story had to be told again. 
And then it was a minute and 24 seconds before the first 
dispatcher put voice to radio to dispatch the first law 
enforcement officer. A minute and 24 seconds. On the first 
floor, 24 people were shot or killed in a minute and 44 
seconds.
    Those are the things that need to change. And as soon as 
somebody calls 911, that call needs to go out immediately. 
Seconds matter. And an irony is that when finally they did 
dispatch a Coral Springs police officer, the first officer, he 
arrived in 19 seconds. So if it had been done properly and the 
work flow had been set up differently, maybe somebody would 
have been there a little earlier that could have helped.
    Senator Peters. Yes. Dr. Temkin, my State of Michigan is a 
State rich in diversity, including folks in rural areas, urban 
areas, also students of various racial and ethnic backgrounds. 
And I know there is no one-size-fits-all approach to school 
safety, and we need to be thinking about that as we are looking 
at putting together national policies.
    My question to you is: What are some of the unintended 
consequences we should be aware of when discussing school 
safety measures that may not look the same across very diverse 
communities?
    Ms. Temkin. Well, I think it is important that we recognize 
that it cannot be a one-size-fits-all solution. I can say that 
the high school that I attended in Arizona was not laid out as 
a traditional high school. We had multiple buildings, something 
similar to Marjory Stoneman. The security measures that it 
would take to secure that school would have been very different 
than the schools here in D.C., which are largely held in a 
single building.
    We have to not restrict the solutions that we can give 
schools, and we also need to recognize that every context is 
going to be different. In a rural area, it may take even longer 
than the sheriff has mentioned for a police officer to reach a 
campus, and we have to recognize that in developing whatever 
recommendations we give to schools.
    Senator Peters. Thank you.
    Chairman Johnson. I do not know to what extent there is 
still a sense of urgency in Colorado. I know the sense of 
urgency there is in Florida. I have a sense there is still a 
pretty high level of urgency in Connecticut.
    The question I have is: How do we create the sense of 
urgency that exists right now in Florida after these tragedies? 
How do we find champions in States where the tragedies have not 
already occurred, people like Tom and Max and all the other 
families that are involved here? How do we do that? I am 
completely supportive of the clearinghouse. That will have the 
information. But we will still need within the States those 
champions.
    I will certainly try and be that champion in Wisconsin. I 
think it should be incumbent on every Senator to do that. But 
you still need people that are there pretty much full-time 
driving this process. Are there any suggestions?
    Mr. Schachter. Absolutely, and it is that mindset that 
needs to change, that we had in Parkland, that they had in 
Sandy Hook. That is not going to happen here, and my schools 
are safe. And, if you have that mindset, it prevents you from 
having a security mindset.
    The principal at Marjory Stoneman Douglas, when he was 
interviewed and asked, ``If there was a threat to shoot up your 
school, do you expect to know about it?'' His answer was no. He 
was completely disinterested and uninvolved in the threat 
assessment process and the security of his campus.
    So that needs to change, and it is not an easy answer, but 
I think part of the way we do that is by, number one, having 
that school safety rating system to show the public whether or 
not your school is safe. Right now there is no way for a parent 
to go online to see if their school is safe, and if we can take 
that information and push it out to the public, I think that it 
will put nationwide pressure on school districts to implement 
the best practices that are going to be developed in the 
clearinghouse, and I think that is one of the major ways.
    Then, also, it is the best practices because, as we travel 
around to schools, they ask us, ``What can I do? Show me where 
to go.'' Well, the clearinghouse is going to develop those best 
practices, and they are going to be up on schoolsafety.gov very 
shortly, hopefully.
    Chairman Johnson. So I want to talk about your best 
practices and your tier system here. I think Senator Scott used 
the words ``things we just had to do.'' I am assuming Tier 1 is 
things we just had to do, it is so obvious. What is the 
criteria you are setting as you are setting those tier levels? 
Do you have multiple criteria, no-cost, low-cost, people agree 
on it, most effective? What do you use as your criteria?
    Mr. Schachter. Yes, so, Tier 1 would be low-cost/no-cost 
where, for instance, in an active assailant response policy, we 
are not talking about implementing massive amounts of 
technology that would cost a lot of money and would be a very 
short time to implement.
    Also, another example is locking doors. You lock your door 
when you leave your house. Every teacher should be teaching 
with a locked door.
    And then you go to Tier 2, 3, and 4. Tier 4 would be, a 
long time to implement and very costly. So, implementing those, 
the Marjory Stoneman Douglas Commission laid that out, Tier 1, 
2, 3, and 4. And, I think that the clearinghouse is going to be 
hopefully doing that as well.
    Chairman Johnson. In my briefing--this is a relatively 
thick briefing packet I got--I saw the summary recommendations 
from your commission, from Sandy Hook, from Columbine, from the 
Federal commission. And then they set up a matrix for me in 
terms of here are the four columns. Here are all the 
recommendations, which commission was recommending which. There 
are a fair amount of differences. A lot of commonality but a 
fair amount of differences. But there were a lot of 
recommendations.
    Mr. Schachter. But there are things that every school can 
do. No matter if you are in Indiana, in rural Indiana, or in 
Miami, every school should be doing these no-cost/low-cost 
things.
    Chairman Johnson. Again, that is what I appreciate about 
the structure you have brought to this, the tiers, the priority 
in terms of what we need to be doing in this, and then, again, 
a national clearinghouse. It does not require a big old 
government program, but it just requires the National 
Government to be that clearinghouse and do it thoughtfully and 
highlight it. From my standpoint, the legislation ought to be 
action-inducing to create that pressure, to find those 
champions in the States so this is a driven at a State and, 
even more important, at the local level because schools are a 
local issue. It just really is.
    You mentioned Indiana. I have met with so many people on 
this issue. I think I met with the folks that have really 
hardened--kind of an Exhibit 1 of a hardened school. It cost 
$300,000. Can you tell me a little bit more about that and talk 
about all the things they have done?
    Mr. Schachter. Yes, and the reason there was such a high 
cost is because they have bulletproof glass in that school. 
Obviously that is not, scalable, but the things that that 
school does do, number one, you would never know that it has 
the best security. It does not look like a prison at all. You 
would not even notice that. It does not even have metal 
detectors. But what it does have is it has that immediate 
notification to law enforcement, and it has--they drill, they 
practice, because if you do not train your teachers and your 
staff, you see what happens, like my son was murdered. That is 
what happens if you do not drill and you do not train. And when 
I went to that school, I arranged a private tour right after 
the tragedy in Parkland, and one thing that I thought was very 
illuminating was we talked to teachers, we talked to children 
in that school, and they felt safer knowing that they knew what 
to do in an emergency. They know that if there is an active 
shooter, they know exactly where to go in that classroom.
    Another Tier 1 measure would be, they have a red line in 
that classroom, in the corner of that classroom, so that every 
child knows where to go. He is out of the sight line of that 
window. Alex was murdered because the murderer targeted him 
through that window, and the kids on the second floor, like the 
sheriff talked about, a lot of them were in those corners. So 
that is another thing. It is low-cost/no-cost, and the training 
is very important, training for law enforcement officers. In 
the Marjory Stoneman Douglas shooting, the active shooter 
training that law enforcement had, they only trained active 
shooter every 3 years. So active shooter training, whether it 
is law enforcement or staff and children, it is muscle memory. 
You need to know what to do. And these are life skills. We do 
not live in Kansas anymore. This is happening around our 
country. Children and staff need to be trained no matter if 
they are in a movie theater or they are in a school. They need 
to be equipped with these life lessons to be able to protect 
themselves in case of an emergency.
    Chairman Johnson. I should know this. Did you all see each 
other's testimony before today?
    Mr. Schachter. Negative.
    Chairman Johnson. So you have not seen Dr. Temkin' written 
testimony.
    Mr. Schachter. Negative.
    Chairman Johnson. I think it is interesting. Dr. Temkin, 
you mentioned about, live fire drills, basically, using plastic 
bullets. I kind of have to scratch my head, but the type of 
drill and the type of--do you have any problems with what Max 
is talking about in terms of, like we used to do, we would 
crawl under our desk--I did not really feel particularly 
traumatized by that. I realize it was pretty stupid. But, we do 
need to prepare, just like you have to do fire drills, that 
type of thing. Do you see any problem with that?
    Ms. Temkin. I absolutely agree that we need to prepare, but 
I think it is the way we frame how we are doing the training as 
well as the types of training we are doing. I think we have to 
be careful that these do not become so routine that when an 
incident unfortunately happens, students do not feel 
complacent, ``Oh, this is just another drill.'' That is a risk 
of overdoing some of these things.
    I also think that we have to make it clear that we are not 
doing this because there is an imminent threat. I think that is 
where kids get scared, when they think that the community they 
are in and the community their peers, the teachers that are 
around are going to in some way harm them, they become scared 
to come to school. And so we need to prevent that option as 
well. I think there has to be that balance.
    Chairman Johnson. So in preparing and in listening to the 
testimony and that type of thing, I am thinking about an issue 
we are dealing with all the time, and that is the problem on 
our border. And before Senator Peters starts rolling his eyes 
on this one, I see a similarity in terms of what we are dealing 
with here, because right now we have a crisis at the border, 
there is a specific problem in here now. And oftentimes the 
solution--which, by the way, it is a solution. If we could 
develop those countries, if we could get rid of the drug 
cartels, if we could end the extortion rackets and provide 
opportunity, you would not have a migrant flow out of Central 
America. But that is a very long term solution.
    With all respect, Dr. Temkin, an awful lot of things you 
are talking about, better mental health treatment, again, we do 
not have enough mental health practitioners now. So how do we 
separate out and how we do make sure that the kind of longer-
term solutions, which are completely valid and we would all 
love to do them, do not get in the way of the Tier 1, the 
things we must do right now? Really take that long-term 
viewpoint, because the next thing I am going to ask is some of 
the controversial proposals as well, that those do not get 
locked up or get included in these things and prevent action.
    Ms. Temkin. So I think the main issue is that there is a 
limited amount of resources to go to this, so we have to 
balance our investments in what we do to defend our schools 
with what we are doing to actually prevent school violence and 
build our students up. When we are given such a limited amount 
of resources, our schools are incentivized to do the visible, 
easy security systems and less incentivized to really engage in 
the systematic prevention efforts that are really necessary to 
create safe schools. So we have to incentivize both.
    Chairman Johnson. OK. I am a big proponent of the 
principle: ``Keep it simple, stupid (KISS).'' OK? So what I am 
asking--I hate to give folks like you a homework assignment, 
but, again, I have seen the recommendations. And I know you 
have done the tiering. But work with this Committee to design 
the most simple but most effective piece of legislation under 
our jurisdiction that can grab people's attention, that can 
create that sense of urgency, that can have the Federal 
Government do what it can do so that we are actually taking 
action as opposed to what often happens around here, oh, well, 
we just need more funding for X, Y, and Z. OK? I think the most 
important things we need to do here do not require a whole lot 
of funding. So let us concentrate first on that because to me 
the number one thing we have to do is create that sense of 
urgency so that every community, every school, and every State 
is implementing at least those Tier 1. And if we can get their 
attention on that, if we get them active, you take that first 
step--I come from a manufacturing background, continuous 
improvement. If we can make that incremental improvement, take 
that first step, you are going to get people's attention, and 
they will be looking at Tier 2, Tier 3, and Tier 4 without 
arguing over the more controversial things. OK?
    One final question that I have is I do want to address the 
controversial issues. We talked about red flag laws. What did 
you say, 15 States have enacted those? What has always 
frustrated me about the whole gun control debate is I really do 
think there is common ground, but what ends up happening is, 
well, you have to take all of mine or all of mine, and just 
people do not--OK, what do we agree on? I mean, let us at least 
enact what we agree on. It seems to make an awful lot of sense 
to me that you want to keep guns out of the hands of dangerous 
people or people that have serious mental health problems. But 
at the same time, I fully respect due process. There is a real 
serious concern about what do you do if they are not guilty 
yet. So how do you come together--that is just one of--I would 
say that is probably one of the more controversial aspects of 
this whole thing, the gun control debate. How do we get by 
that? Any suggestions? Does anybody want to comment on that at 
all? I probably should not have even brought it up, but I was 
advised not to have this hearing, too.
    Mr. Gualtieri. We have in Florida, as a result of the 
legislation last year, passed a red flag law, a risk protection 
order law, and it is extremely effective, and it has a lot of 
due process built into it, where law enforcement has the 
ability to seek an order immediately from a judge, and then a 
final hearing has to be held within 14 days. Then they are good 
for a year, and they can be renewed, and it is a full 
adversarial hearing.
    Finally, we also have now authority when we do take 
somebody into custody under what we call the ``State's Baker 
Act law''--every State has a version, which is an involuntary 
commitment for mental health evaluation. Up until last year, we 
did not even have the authority when we take somebody into 
custody because they threaten somebody, let us say, with a 
firearm, we could not even seize the firearm. We can do that 
now.
    So those are very important and effective, but they also 
have a lot of process built into it so that it is being done 
with the right people, and it is not just blanket and sweeping 
across the board.
    Chairman Johnson. Obviously, because of Parkland, that was 
something--it is easier to pass that. Was it designed pretty 
well so it was also noncontroversial? Had you been a State 
where you did not have Parkland----
    Mr. Gualtieri. Oh, no. Of course, it was controversial.
    Chairman Johnson. But how controversial?
    Mr. Gualtieri. I think it was, I would say moderate to very 
controversial. There had to be a lot of discussions and 
negotiations. As we all know, and you would know better than I 
in the legislation process, it is all about compromise and 
getting it to a place where we could get something through. It 
is not perfect, but it is better than where we were.
    Senator, I just want to add this. I think that there are a 
number of things that can be done across the board that are 
low-cost/no-cost, and probably the best thing is to set 
minimums on what should be done, but recognizing that we are a 
very diverse country and there has to be local control in local 
communities, and that we tell and you tell and others who are 
in a position to tell people, tell them what to do but not 
necessarily how to do it, to allow for that local control, like 
with drills as an example. You have to have drills, but do not 
get into telling them the specifics of it, because they need to 
be age appropriate, and they are going to be different in 
different places. You have to have an active shooter response 
policy. Let them craft it. If we can just get to a place where 
every school district in this country had five, six, seven 
basic core security competencies in place, we would be much 
further ahead than where we are. So we need to make it so that 
it is palatable, so that it is the noncontroversial things that 
they will actually take and do.
    So I am a big advocate of telling them here are the 5, 6, 
or maybe even 10 things you have to do. Let them figure out how 
to do it, and if we could get there, we would move the needle.
    Chairman Johnson. I am not a real fan of the Federal 
Government here. I am all about local and State control, 
government close to the governed. I really do not want to 
create mandates, but I do realize the Federal Government can 
play a role, but I want it to be a constructive, facilitating 
role.
    Do you have anything further you want to add?
    Senator Peters. No.
    Chairman Johnson. I will give you one last chance. I will 
start with you, Dr. Temkin, if there is something you want to 
add to this--not necessarily what we just talked about but just 
to kind of close out the hearing.
    Ms. Temkin. Sure. So there are a few points that I think 
are really important to consider here. One is: What is our 
definition of safety? So if our definition of safety is only 
about preventing school shootings, I think that security is 
clearly the way we want to go. But if we want our kids to 
actually feel safe in schools, if we want them to be protected 
against all forms of school violence ranging from bullying on 
up, we have to do more than just security. We have to make sure 
that we are thinking more broadly. We have to be thinking about 
school climate.
    To Mr. Schachter's point about school safety scores, we 
know that several States are moving towards, within their ESSA 
plans, incorporating school climate surveys as part of their 
fifth indicator for Title I. These are movements that I think 
could be helpful, but it will take a much broader view of what 
school safety means.
    I think the other thing is we also need to build upon 
things that are already happening. One piece I want to make 
sure is known to the Committee is that there are several 
clearinghouses already in existence around school safety that 
are from the Federal Government and are available, as well as 
technical assistance centers. So I would encourage you to look 
at them and see what might be improved upon them. So 
crimesolutions.gov is a Federal website maintained by National 
Institute of Justice. That has many of the practices and 
programs available around school safety and the evaluations 
thereto, including those that have shown to both not work and 
had potential unintended consequences. So we have to consider 
that as we are thinking through these.
    There are also several technical assistance centers from 
the Department of Education, including the readiness and 
emergency management TA center, which does a lot of this work 
as well. So I really encourage you, as you are thinking about 
the national clearinghouse, to look at what has already been 
funded and what is already in existence.
    Chairman Johnson. Thank you, Dr. Temkin. By the way, I will 
start with the safe schools, one that kids do not get shot at, 
and then we will proceed from there. Sheriff.
    Mr. Gualtieri. I think we have covered it. I appreciate the 
opportunity, and thank you, Chairman and Ranking Member Peters, 
for shining a light on this problem and letting people know 
that we still have a lot of work to do. The needle does need to 
move further, and in some cases it needs to move to begin with. 
And what people need to know is that it is going to happen 
again and that we have to do things differently. So I 
appreciate the opportunity.
    Chairman Johnson. Tom?
    Mr. Hoyer. Yes, I would just like to restate how much we 
believe this is such a complex problem, there is no single 
answer to this. A lot of school safety lies outside of the 
school way before a shooting ever happens. We think about these 
in like layers of protection, right? So mental health is the 
first layer where you try to detect and help kids who need the 
help. If they fall through the cracks there, we have to keep 
the firearm out of their hands. And if they fall through the 
cracks there, we have to have schools that are safe.
    So you have to think about it that way. It is a much 
broader problem than just one thing.
    Chairman Johnson. Max.
    Mr. Schachter. I want to address the mindset for the last 
20 years that school safety is a local issue and the Federal 
Government really should not have a lot to do with that. In my 
opinion, schools have failed to protect their children since 
Columbine, and when those national crises happen, I think the 
Federal Government has a larger role to take and I think should 
take a larger role in protecting its schools and its children. 
And as far as the Federal Government's role, they have the 
power of the purse, and most schools receive money in some form 
or fashion from the Federal Government. There are many grant 
programs in the Department of Justice (DOJ) that give out money 
to schools, and once we develop these best practices and, for 
instance, these Tier 1 levels, I would certainly advocate that 
no school gets money unless they have implemented these Tier 1 
low-cost/no-cost measures. I think that that would move the 
needle.
    Just to give you an example, Colorado just signed its law 
20 year post-Columbine to lock all their doors when they teach. 
It has taken 20 years for that to happen. Florida, has that as 
well, is recommending that, but that needs to be nationwide. 
And as the sheriff talked about, we are just talking about 
trying to move the needle here to protect our children.
    Chairman Johnson. Max, I have always been impressed with 
just your basic common sense and the way you have taken your 
tragedy and just turned it into a practical approach.
    Mr. Schachter. Thank you, Senator.
    Chairman Johnson. Again, I truly appreciate that. Again, 
our sincere condolences. Thank you all for participating in 
this.
    The hearing record will remain open for 15 days until 
August 9 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:20 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
